HHS/OIG-Audit--"Analysis of Hospital Capital Costs, (A-09-91-00070)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Analysis of Hospital Capital Costs," (A-09-91-00070)
April 21, 1992
Complete
Text of Report is available in PDF format (636 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report analyzes hospital capital costs during the first 5
years of Medicare's prospective payment system (PPS). We found that capital
costs increased much faster than other leading economic indexes, even though
the hospital industry had significant excess capacity. We recommend that HCFA
propose legislation to continue mandated reductions in capital payments beyond
FY 1995 to recognize that the historical costs used in setting PPS rates are
inflated because of excess hospital capacity and the inclusion of inappropriate
elements (waivers of interest income offsets and depreciation of federally
funded assets). The HCFA generally concurred with our position on excess capacity
but did not agree on the issue of interest income waivers and depreciation
on federally funded assets.